/

No.

&

IN THE
SUPREME COURT OF THE UNITED STATES

JOHNATHAN LAMAR BURKS - PRO SE PETITIONER
vs.

STATE OF MICHIGAN - RESPONDENT

S^prem ® COUrt/Tjg
FILED

JUL 3 I 2020
office or

ON PETITION FOR A WRIT OF CERTIORARI TO
THE MICHIGAN SUPREME COURT
PETITION FOR WRIT OF CERTIORARI

Mr. Johnathan Lamar Burks
Pro S© Prisoner Petitioner
BELLAMY CREEK CORRECTIONAL FACILITY
1727 West Bluewater Highway
Ionia, Michigan
48846

ItHclerk

QUESTIONS) PRESENTED
WHETHER THE GENERAL SIXTH AMENDMENT RULE ANNOUNCED BY THE
COURT IN APPRBSDI, AS EXTENDED BY ALLEYNE, OVERRULES THE COURT* S
HOLDINGS IN BOTH MCMILLAN AND WATTS, WHICH STANDS FOR THE
PROPOSITION THAT DUE PROCESS PERMITS A SENTENCING COURT TO
CONSIDER CONDUCT OF WHICH A DEFENDANT BAD BEEN ACQUITTED AT
TRIAL, USING A PREPONDERANCE OF THE EVIDENCE STANDARD, AND IF
SO, WHETHER DUE PROCESS PRECLUDES A SENTENCING COURT FROM
CONSIDERING ACQUITTED CONDUCT IN ARTICULATING A SUBSTANTIAL AND
COMPELLING REASON IN SUPPORT OF AN UPWARD DEPARTURE FROM AN
ESTABLISHED ADVISORY GUIDELINES MINMH SENTENCE RANGE?

LIST OF PASTIES
In accordance with Sup.Ct.R. 14.1(b), a list of all parties involved in the
court whose judgement is sought to be reviewed are:
Mr. Johnathan Lamar Burks, Prisoner No. 638048
Pro Se Prisoner Petitioner
BELLAMY CREEK CORRECTIONAL FACILITY
1727 West Bluswater Highway
Ionia, Michigan
48846
andKym L. Worthy (P38875)
WAYNE COUNTY PROSECUTING ATTORNEY
Amy M. Somers (P65223)
Assistant Prosecuting Attorney - Appeals
1441 St. Antoine, Suite 1106
Detroit, Michigan
48226
Phone: (313) 224-8109

TABLE OF QOTMTS

Question(s) Presented
List of Parties

* * ©

I

©

•eaee©eac©o©o«tt©©ftee*©e

Table of Contents

. Ill

B6e6o©©«©©6©e«9»©d

Table of Cited Authorities

®o©ft©*©«**»«•*»©©©

©©•©•♦©•©9®

Opinions -Below

... IV

•

Statement of Jurisdiction B
Constitutional Provisions
Statement of the Case

II

© •

• ©'•&©•««•© o ©»•*•©

6**«©*€0©#»e*«ee«»©

• «0©0©C» ©©»»*«<«•*©•©

VI
VIII

• a

IX

• » *.© © « * •••©e©*e©

*>©•«•$**«* * e e » *

1

*•

Reasons for Granting the Writ:
Conclusion

a*0ft©O®9Oftft«ft«©

©c©***©®®©©®©©**©

ft© 0 • •

•«©ee©ee©©s«»

. 6

. ©••*•** e'*©©««a*b

22

• • »« ©•*©•«••©«©© ©•• • *« «

. 5

TABLE OF APPENDICES
:

Appendix - A

©*«©©©ttc-ftft©a«ft©9©0©©ee

Appendix - B

e©t««*©e ©'•©*•••©•.©*««*•••©©©»•*

Appendix - C

on©

• ft*®99 »•■•*•*©«

.. 4,5,14,15

©••®©9«®®9c>«* «»©©•••

# © * *

Appendix - D

*»*frft©ft«9©ftftftft.o«e«*«ft«©©©o©e

Appendix - E

• •©«••*« ©ee •«■*<?»»©©«>••

Appendix - F

eftft9©fteftft©«a«9®©«»c*©©©©©»

4,13

©•**«© *© © * © ©no ft • ft© •

4
4

-III-

• % •.e »»©•»«»•© © « **

. 2

tabu: of

errs) authorities

This Court's Decisions
Alleyns v. United States, 133 S.Ct. 2151 (2013)

6 « « « « •

6,7,8,9,10,17,
18,19,20,21

Apprendi y. New jersey, 530 U.S. 466 (2000)
Blakely v. Washington, 542 U.S. 296 (2004)

• ft ft 0 ft ft ft''ft ft

• • • ft

Duncan yv Louisiana, 391 U.S. 145 (1968)

0*00

United States', 536 U.S. 545 (2002)

In re Wioship, 397 U.S. 358 (1970)

* ft •'• 0

«*0O«00C

0 * 6 0 0

0 0 * m •

• 6Q0*O*«»Oft9

Jones v. United States, 526 U.S. 227 (1999)

7,8

• m « 0 0 s ft

ft O '* • ft 0 • ••000*

Coffin v. United States, 156 U.S. 432 (1395)

Harris

8,9,10,17,
18,20,21

♦ «»

6,12

7,9,17
© * «

*••00

ft 6 •

7,18,19,20,21
&■

Ramos v. Louisiana, 140 S.Gt. 1390 (2020) ..
United States v. Booker, 543 U.S. 220 (2005)

13
17

0 • • e 0 © 0

McMillan v. Pennsylvania, 477 U.S. 79 (1986)

1

7,10,21

• • 6' 0 0. 6 •

* ft * •

18,19,20,21

United States v..Watts, 519 U.S. 148 (1997)
U.S. Court of Appeals Decisions
a

© e

* ft « « ft ft

12

United States v. Doroely, 454 F.3d 366 (D.G. Cir.2005)

«*

«*«••

19

United States v. Crosby, 397 F,3d 103 (2nd Gir«2005)

United States v. Faust, 456 F»3d 1342 (11th Cir.2005)
United States v« Home, 474 F.3d 1004 (7th Cir.2007)

ft«*ftftftftft*ft

•«•

»««••••»

.... 19

« » • • 0 s

19

U.S. Constitutional Provisions
U. S. Cons t .Amend. VI.
U.S.Const.Amsnd.XIV.

•**aR©ft0e0e00ft04

O0*ae0efr0eft««e

oe'00«©©0ae«

e©*o««see*000 ft. *•■•*'***«**

People v. Beck, 504 Mich 605 (2019) . * * y *

900ft 9. *09 «■

People v. Claypool, 470 Mich 715 (2004) ....
People v. Dixon-Bey, 321 Mich App 490 (2Ql?i!
-IV-

6,12

1,2,6,11,12,13 t
16,19,20,21
S ft ft

ft ft ft 0 0 • •

6,12.

8

. 1,2,11,16

Michigan Decisions' QxtZ.

Pege(s)

People v. Drohan, 475 Mich 140 (2006) ...
People v. Lockridge, 498 Mich 358 (2015)

8
•*•«

9,10,12,14

People v. Milboura,’ 435 Mich 630 (1990) .

16

People v. Steanhouse, 500 Mich 453 (2017)

• 0O0&**6

People v. Steanhouse, 313 Mich App 1 (2015)

10
12

Miscellaneous Decision
State v. Marley, 321 N.C. 415 (1988) ......

13

Michigan Statutes
■>. MCL 750.83 ........

1

MCL 750.110a(2) ...

1,2,3,4

MCL 750.224£ ......

1

MCL 750.227b ...

, is2,3

MCL 750.234b(5)

*

1

MCL 750.316(a) .

1

MCL 750.316(b) .

1

Ma 769.11 ......

2,15

Ma 769.34(2) ...

10

MCL 769.34(3) ..

10

MCL 777.33 .....

15

Ma 777.33(2)(b)

4,15

Ma 777.44-......

15

-V-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Pro

Se

Prisoner

Petitioner,

Johnanthan

Lamar

Burks

(hereinafter

"Petitioner'1), most respectfully, but humbly, requests that a writ of certiorari
issue to review the judgement(s) set forth below, as they present a question of
Constitutional law with respect to the Sixth and Fourteenth Amendments to the
United States Constitution, that has not yet been answered by this Honorable
Court:
OPINIONS
Pos t -Conviction Opinions/Judgements
In People v. Johnathan Lamar Burks, Michigan Supreme Court (hereinafter
"MSC") No. 161153, the May 26 , 2020, Order of the MSC, the highest state-court
to review the merits and deny Petitioner's Application for Leave to Appeal
(discretionary review) the February 27 , 2020, judgement of the Michigan Court of
Appeals (hereinafter "MCDA"), appears at Appendix A to the petition and is
reported at People v. Eurks, ___ Mich _____ (2020).

App. A*

In People v. Johnanthan Lamar Burks, MQQA No. 335955, the February 27,
2020, Per Curiam Opinion on remand denying Petitioner's appeal as of right
appears at Appendix B to the petition and is unpublished.

App. B.

In People v. Johnanthan Lamar Burks, MSC No. 157838, the Order of the MSC,
the highest state-court to review the merits and, in lieu of granting leave to
appeal the April 3, 3018 judgement of the MGOA, which was held in abeyance
pending decisions in People v. Beck (Docket No. 152934), 504 Mich 605 (2020),
and People v. Dixon-Bey (Docket No. 156746), 504 Mich

(2020), those cases

having teen decided on July 29, 2019, the MSC vacated the part of the judgement
of the MOOA addressing the sentence for home invasion, and remanded
-VI-

the case to that court for reconsideration in light of Beck, and denied the
application for leave to appeal in all other respects. The November 27, 2019,
Order of the MSC, appears at Appendix C to the petition and is reported at
People v. Burks, _____ Mich__ _ (2019).

App. C.

In People v. Johnathan Lamar Burks, MSC No. 157838, the October 30, 2018,
Order of the MSC, the highest state-court to review the merits and hold
Petitioner's Application for Leave to Appeal the April 3, 2018, judgement of the
MQ0A in abeyance pending decisions in People v. Dixon-Bey (Docket No. 156746)
ami People v. Beck (Docket No. 152934), appears at Appendix D to the petition
and is reported at People v. Burks, ____ Mich ___(2018).

App. D.

In People v. Johnathan Lamar Burks, MQ0A No. 335955, the April 3, 2018, Per
Curiam Opinion denying Petitioner's appeal as of right, appears at Appendix E to
the petition and is unpublished.

App. E.

In People v. Johnathan Lamar Burks, Lower Court No. 16-002935-03-FC, the
August 30, 2016,

Judgement of Sentence and Coimitment

Corrections, appears at Appendix F to the petition.

-VII-

to Department of
App. F.

STATEMENT OF JURISDICTION
Pursuant to Sup.Ct.R. 10(c), this petition involves a state court that has
decided an important question of federal law that has not been, but should be
settled by this Court. The date on which the highest state-court, that being the
Michigan Supreme Court, decided this case was May 26, 2020. A copy of that
order/decision appears at Appendix A.
Because this petition is timely, Sup.Ct.R. 13.1, this Honorable Court has
jurisdiction to hear and decide this petition under 28 U.S.C. § 1257(a).

-VIII-

GDNSTTIUnONAL AND statutory provisions involved
The Fourteenth Amendosst to the United States Constitution provides:
Sea. 1. All persons bom or naturalized in the United States and
subject to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No State shall make
or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction
the equal protection of the laws.
The Sixth Amendment to the United States Constitution provides:
In all criminal prosecutions, the accused shall enjoy the right
to a speedy and public trial, by an impartial jury of the State
and district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to
be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
The Fifth At

at to the United States Constitution provides:

No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand
Jury, except in cases arising in. the land or naval forces, or in
the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offense to
be twice put in jeopardy or life or limb; nor shall be conpelled
in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without
just compensation.
U.S.Const.Amends.XIV.5 VI.; and V., respectively.

-IX-

SMMfT OF THE CASE
In tha instant case presently before this Honorable Court, Petitioner was
charged in. the 3rd Judicial Circuit Court for Wayns County, by' Information
-Felony with eight (8lf felony counts, those being Count i -> First-Degree
Premeditated Murder, contrary to Michigan Compiled l&m (hereinafter "MCE,'8)
750.316(a)| Count 2 - Felony Murder, contrary' to MCL 750.316(b)? .Costas 3-4
-Assault-with’ Intent to Mistier, contrary to M& 750.33; Gsuat 5 - -First-Degree
Hama Invasion, contrary t© MOL 750.tl0a(2); Count 6 - Discharge of a Firearm In
or At a.’ Building Causing Death, contrary to 'MCL 750.234b(5); Count 7
-Possession of a Firearm by a Felon, contrary to MGL 750.2241; and Count 8
-Felony Firearm, contrary to MOL 750.227b.
j.

'

.

•

The ;Petitioner's charges stem from an incident that took place on Easter
morning, :MasQh 27, 2016. Petitioner’s brother, HGisaa Jackson, .had gotten into
an argument with his girlfriend and was running from the police. Trial
Transcript (hereinafter ”TTS)» 7/27/16, at p.141. He sustained a minor injury
while he was running. Mr. Jackson ran to. Andrea .Scott's residence in Detroit.
Id-.p at pp,141-142, 145. Ms. Scott allowed Mr. Jacks®! to hid® in her room. Id •>
at pp.48-50. Ms. .Scott's 3 year-old daughter Aniaya, was also in tha home.-Id**
at pp.48-49. Mr. Jackson took off his Mike tennis shoes and left them in the
front room before going upstairs. Id *9 at p.142, p.144. Apparently, while Mr.
Jackson was upstairs, his shoes were taken by Beangel© Davis, a.k.a*, "Black".
Mr. Jackson eventually cams downstairs to find that his shoes ware missing. Id «»
at p.145. Mr. Jackson called his mother and asked her to take hira to the
hospital so he could be treated for Ms injury. Id., at pp.146-147.
On the way to the hospital, Petitioner call®! sea© family members who were
at his sister's house. Petitioner was there when Mr. Jackson called. Id., at
p.102. Reginald Street, Mr. Jackson's friend was also there. Id •> at pp.149150.
-1-

Mr. Jackson told his family mstibers that Black had shot him in the ankle and
taken his shoes. TT, 7/27/16, at p.148. After hearing that his brother, Mr.
Jackson, had been robbed, Petitioner called his cousin, Paul Kendall. Id., at
p.104. After receiving Petitioner's call, Mr. Kendall, showed up at the house
with a gun. Id •» at pp. 105-1%. Petitioner, Mr. Kendall, and Mr. Street left
Petitioner's sister's house and proceeded to drive over to the victim's house.
Before they left, Mr. Kendall stated, "I'm not going over there for no games,
and if you don't have a gun, you don't need to go." Id., at pp.107-108*
Mr. Kendall and Mr. Street were armed. When they got to the victim's house,
Mr. Kendall, broke the door down, went in, and starting shooting. Id., at pp.5355, pp.62-63. There were gunshots flying through the window of the house as
well. TT, 7/26/16, at p.158. Petitioner jumped into the driver's seat so they
could flee the scene after the shooting. As a result of the gunshots, 3 yearold, Aniaya, was killed. IT, 7/27/16, at p.61. Kejuan Kitchen and Mansour
Ceesay, where inside the house, were also shot, but survived. Id., at pp.60-61.
Petitioner was charged as a Third Habitual Offender, MCL 769.11, based on
the theory of aiding and abetting. According to the prosecution, Petitioner
called upon Mr. Kendall to exact revenge for the taking of his brother's Nike
Air Jordan tennis shoes, and then acted as the getaway driver after the
shooting. Prior to trial, Mr. Kendall committed suicide in the county jail. TT,
7/25/16. at pp.5-6; TT, 7/26/16, at p.3, pp.119-120.
Following closing arguments, and on August 3, 2016, the jury acquitted
Petitioner on Counts 1 through 4, and Count 6, but guilty on Count 5 - FirstDegree Home Invasion, MCL 75O.110a(2), and on Count 8 - Felony Firearms, MCL
750.227b. See App. F.
At his subsequent August 30, 2016, sentencing hearing, following arguments
with respect to scoring of the advisory guidelines, in which a guidelines
minimum sentence range of 57 to 142 months was set based on Petitioner's

First-Degree Home Invasion, MCL 750.110a(2), conviction. Sentencing Transcript
(hereinafter '‘ST*1)} 8/30/16, at p. 14, and before departing from the advisory
guidelines minimum sentence range of 57 to 142 months, and passing sentence, the
sentencing court made the following comments:
"But nonetheless the maximum sentence that this Court can
impose, which the People believe is a reasonable sentence under
Lockridge is 26 to 40.”
"The People would ask the Gourt to impose that sentence
'based on the defendant1 s role in this homicide.' As the Court
indicated, 'he was the leader.' He in fact called Paul Kendall,
but for him calling Paul Kendall, probably none of this would
have happened."
• • • He
'resulted in
we also nave
that house."

called [Paul Kendall] over to that situation which
the death of not only Anaiya, which is scored” but
two [assault with attempt to murder] victims inside
f!The People would request 26 to 40 years."

ST, 8/30/16, at p.14 (underlining in original) I (bold print, alteration, and
single quotation marks added). After giving Petitioner the opportunity to
allocute, the sentencing court went on to carment that:
"In this particular case you mobilized an angry, volatile
young person that you knew to be angry and volatile, and who had
a penchant for using guns to come over and rally with you
because of someone's missing tennis shoes."
"A three-year old child has no future. There is a heartache
for that family because it was your idea. You were the one who
instigated the phone call and all of the action that led to a
three-year old child being murdered on Easter Sunday."
"And but for your active involvement, that three-year old
child would be alive today. You bear enormous responsibility."
Id., at pp.18-19.
In sentencing Petitioner to a term of 18 to 40 years' imprisorment for the
First-Degree Hone Invasion, MCL 750.11Qa(2), and to a term of 2 to 2 years'
imprisorment for the Felony Firearm, MCL 750.227b, convictions, the sentencing
court stated that, "I do think that the guidelines do not adequately reflect the
serious harm that was done in this particular matter. Id., at pp.19-20.
In sentencing Petitioner to a minimum term of 216 months' (18 years)

imprisonmen t, the sentencing court exceeded the top end of the established
guidelines minimum range of 57 to 142 months based on Petitioner’s conviction of
First-Degree Home Invasion, MCL 750.110a(2), by approximately 6 years, 2 months,
based on acquitted conduct in assessing Offense Variable (hereinafter OV) 3 at
100 points, MCL 777.33(2)(b), which is scored for death of a victim. ST,
8/30/16, at p.14*
On November 28, 2016, following a timely Claim of Appeal, Petitioner was
appointed appellate counsel to represent him in the M00A. On appeal, Petitioner
argued, inter alia, that he was entitled to be resentenced because his sentence
is not reasonable, and was based on acquitted conduct. On April 3, 2018, the
MCQA affirmed Petitioner's convictions and sentences. App. E.
Petitioner next

sought discretionary review of his convictions and

sentences in an Application for Leave to Appeal to the MSC. In an Order dated
October 30, 2018, that court held Petitioner's application for leave to appeal
the April 3, 2018 judgement of the MCQA in abeyance, pending its [MSC] decisions
in People v. Dixon-Bey and People v. Beck. App. D. On November 27, 2019, the
MSC, having decided Beck and leave to appeal having been denied to Dixon-Bey, in
lieu of granting Petitioner leave to appeal, the MSC vacated the judgement of
the MCQA addressing the Petitioner's sentence for home invasion, and remanded
the case to the MCQA for reconsideration in light of Beck. Leave to appeal was
denied in all other respects. App. C.
On February 27, 2020, on remand, the MCOA once again affirmed Petitioner's
sentence of 18 to 40 years' imprisonment for first-degree hone invasion, MCL
750.110a(2). to remand, Petitioner argued that the trial court improperly
considered the murder of the 3 year old victim in sentencing him above the
advisory guidelines contrary to the MSC decision in Beck, because Petitioner was
acquitted of that crime. App. B. In rejecting Petitioner's argument, the MCOA
opined that, "[ajlthough trial court commented on the death that resulted from

the shooting, the trial court did not equate defendant's conduct with the murder
and sentenced him accordingly for an acquitted murder[] • • • " "We conclude that
sentencing court's rationale for imposing its sentence did not violate Beck and
adhere to our prior rejection of defendant's contention that the sentence was
improperly premised on acquitted conduct[.]” App. B., at p.3 (ellipses

and

alteration added).
Returning to the MSC in an application for leave to appeal the February 27,
2020 judgement of the MCGA, and in an Order dated May 26 , 2020, the MSC denied
Petitioner's application, citing that, "we are not persuaded that the question
presented should be reviewed by this Court." App.A.
This matter is presently before this Honorable Court for consideration of
Petitioner's Petition for Writ of Certiorari.

REASONS FOR WINS THE WRIT
Last year, in People v. Bask, 504 Mich 605 (2019), the
Michigan Supreme Court has decided an important question of
. federal law that has not teen, but should be settled by. this
Court.
The Fourteenth Amendment to the United States Constitution provides, in
pertinent part:
No State shall make or enforce any law which shall be abridge the privileges or immunities of citizens of the United States?
nor shall any State'deprive any person of life, liberty, or
property, without due process of law? nor deny to any parson
within its jurisdiction the equal protection of the laws.
U.S.te^.A«*l.XBr. This Court has lorg explain that tha Sixth Assistant,
right to 5a jury trial is "fundamental to the American scheme of justice” and is
i■

incorporated to the States under tha Fourteenth Amendment, Rmtos v. Louisiana,
i

140 SXfcw 1390, 1397 <2U20)(sifcing Duncan v. Louisiana, 391 U.S. 145, 149
;

(1%8)) ? People v. Back, 504 Mich 605, 615 (2Q19)(citing Duncan, 391 U.S,, at
149). The Sixth Amendment to the United State Constitution provides, in part;
In all criminal prosecutions, the accused shall enjoy the right
to a speedy and public trial, by an impartial jury of the State
and district wherein the crime shall have teen previously
ascertained by law, and to be informed of tha nature aid cause
of the accusation.
0 .S .Const .Ajaaad.VX.
Appreadi and its Progeny
In Appmndi, the Court announced the general Sixth Amendment rule that,
”[o]ther than the fact of a prior conviction, any fact that increases the
penalty for a crime beyond the prescribed statutory maximum must be submitted to
a jury, and proved beyond a reasonable doubt.” Apprandi v. New Jersey, 530 U.S.
466 (2090)llbold print and alteration added). The Approndi Court struck down as
unconstitutional a statue , that provided for a .possible increase in; the maximum
term of imprisoimsnt from 10 to' 20 years if ' tha trial court found by a
preponderance of the evidence, that tha defendant "acted with purpose to
**6*

intimidate an individual oar group of individuals because of rasa, color, gender,
handicap, religion, sexual orientation or ethnicity.” Apprendl, 530 U.S., at 439
(citation omitted)* The Court rejected tha lower courts6 conclusions that tie
statute was constitutional because the finding of intent to intimidate was a
mare '’sentencing factor" under McMillan. Id., at 492 (citing McMillan v.
Pennsylvania, 477 U.S. 79 (1983)).
In Harris, the Court was presented with the question "whether MSMilXaa
stands after Apprsadl." Harris v# Unite! States, 533 U.S. 545, 550 (2302).
.5 •

There, a majority of tha Court held that Apprsadi did not bar judicially found
facts altering "mandatory minion*" sentences. However, only a plurality of the
Harris Court joined the portion of Justice Kennedy's opinion that distinguished
Apprendi :from McMillan. Id »s at 556-568, The dissenting opinion 'took notice,'
observing- that, "(fejhis leaves only a minority of the Court embracing the
distinction between ifeMilless and Apprendi that forms tha basis of today s
holding

i '

Id., at 583 (Thomas, J., dissenting).

7

^

.
.

Next came the- Court's decision in Blakely. In that case, the Court
addressed a challenge to tha State of Washington's "determinate" sentencing
schema and opined that "indeterminate sentencing" does not infringe on fete power
of tha jury. Blakely v. Washington, 542 U.S. 293, 303 (2004). Essentially, the
Blakely Court held tha Washington scheme unconstitutional to tha extent that It
permitted the trial court to impose, a sentence greater than the "statutory
maximum" sentence authorised by the jury verdict on the basis of the court's
finding that the defendant has acted with "deliberate cruelty." Id •» at 303304# The Blakely Court again emphasised that "the 'statutory maxim®*' for
Apprendi purposes is the maximum sentence a judge may Impose solely on the basis
of tha facts reflected if* tha jury verdict or admitted by the defendant." Id.,
at 303 (bold print added).
In Booker, the Court addressed the application of Apprendi to a
-7-

"daterminate" sentencing schema similar to that of Washington's, in this case,
the federal sentenai^ guidelines. Two different majorities of the Court held
that the guidelines were unconstitutional under Appcendi and Blakely, United
States v. Booker, 543 U.S. 220, 226 (2005), and that the proper rensdy for the
constitutional infirmity was to make the guidelines advisory rather than
mandatory. Id., at 245. The wake of Appeendi, Blakely, and Booker, have been
significant in both State and Federal courts.
i

■

.

In Michigan, first in a; footnote in People v. Clayposl, 470 Midi 715, 730
n.I4 (20O4), and later, in more depth in People v. Brohan, 475 Mich 140, 146
(2006), the Michigan Supreme Court (hereinafter '^4SC") concluded: that the
Apprandd^Blakely decisions did not apply to Michigan's sentencing schema at all.
In so holding, the MSC opined: that "the trial court's power to impose a sentence
is always' derived from the jury's verdict" because the jury's verdict authorized
s

the "statutory maximum" sentence sat by statute. Brohan, 475 Mich, at 161-162.
i

,

Enter Alleyns ■
In Alleyns, Petitioner was charged with using or carrying a firearm in
relation to a crime of violence, which carries a 5-year mandatory minimum
sentence, that increases to a 7-year minima "if the firearm is brandished," and
to a 10-year minimum sentence "if the firearm is discharged." Alleyns v. United
States, 133 S.Ct. 2151, 2155 (2013)(citation omitted). In convicting Alleyne,
the jury form indicated that he had "[ujsed or carried a firearm during and in
relation to . a crime of violence," but not that the firearm was *'[b]randishad."
Id. I'alteration in original). When the presentence report reconKtanded a 7-year
sentence, Alleyne objected, arguing that the verdict form clearly indicated that
the jury did rot find brandishing beyond a reasonable doubt and that raising his
mandatory minimum sentence based on a sentencing judge's finding of brandishing
would violate his Sixth Amendment right to a jury trial. Id., at 2156.
Overruling Alleyne's objection, the District Court, relied on this Court's
-8-

-

holding in Harris, that judicial factfinding that Increases the mandatory
minimum sentence for a crim. is permissible under the Sixth Amendment. Alleyns,
133 S.Ct«, at 2156 (citation omitted).
In Harris, the Court considered the same statutory provision aid the same
question pres®ted to the Court in Alleyns. In Harris, the Court declined to
apply Appseadi to facts that increased the mandatory minimum sentence but not
the maximum sentence. Alleyns, .133 S.Ct

at 215?. In the Harris Court's view,

judicial .factfinding that increased the mandatory'minimum did not implicate the
Sixth 'Amendment. Because the jury's verdict "authorised the judge to impose the
minimum with or without the finding," the Court was of the view that the factual
basis for increasing the minimum sentence was not '"essential*" to the
defendant's punishment. Id. (biting Harris, 53S O.S •» at 560-561 (plurality
opinion)). From this,."the Court drew a distinction between "facts increasing the
defendant8 s minimum sentence and facts extending the sentence beytod the
statutory maximum.'' Id., at 2158..
The Court, in Alieyaa, overruled Harris, and for the first time' concluded
that mandatory minimum sentences were equally subject to the Apprandi rule,
holding that "a fact increasing ■ either end of the range produces a new penalty
and constitutes an ingredient of the offense." Id., at 2160. Because there is no
basis in principle or logic to distinguish facts that. raise the maximum from
those that increase the minimum, Harris was inconsistent with Aprandi. Id., at
2163.
In response to the Court's general Sixth AmendEnssit rule announced in
Appsaadi,. as extended by Allayne, in People v. loekridge, 498 Mieh 358 (2015),
the MSC held that the Court's holdings in Apprendi and Alieyne, applies to
Michigan's sentencing guidelines and renders them const!tutionallly deficient to
the extent to which the guidelines require judicial fact-finding beyond facts
admitted by the defendant or found by the jury to score offense variables (OVs)
-9-

that maadatorily increase the floor of tha guidelines minimum sentence range,
i.e. the ’Mandatory aaininiia" sentence under Alleyns. DadsrMge, 498 Mleh, at 364
(citations omitted)(emphasis in original). Following the Court's rsady in
Booker, to-cure the constitutional violation, tha MSC severed MX 769.34(2) to
tha extant that it makes the sentencing guidelines range as scored on tbs basis
of facts beyond those admitted by the defendant or fomd by the jury beyond a
reasonable doubt mandatory. Usckridge, 498 Midi, at 3S4 (citation omitted). In
addition,i’the MSC- struck down the requirement in MS* 769.34(3) that a sentencing
court that departs to the applicable guidelines range must articulate-' a
*

substantial and compelling reason for that departure. Loekrldge, 498 Mish,- at
364-355. * '
Consistently with tha remedy imposed by this Court in Booker, the MSG held
that a guidelines minimum sentence range calculated in violation of Appraadt and
V

Alleys is advisory only and '-that sentences that depart fro® that threshold are
to be reviewed by ■ appellate courts for reasonableness. Id

at MS (citing

Booker, 543 0.S., at 264). In Steahhousa, fete MSC-wrote that, "lit]ha legislative
sen teeing guidelines are advisory, and the appropriate inquiry when reviewing a
sentence for reasonableness is whether- tha trial court .abused its discretion by
violating the principle of proportionality. Bsopla w Steaahouse, 500 Mich 453,
459-460 (mi) .

.......

Hie Michigan Court of Appeals (hereinafter "MBA”), in Mxsu-Bey, explained
as follows:’
To. determine whether a departure sentence is more
proportionate than a sentence within tha guidelines range, the
trial court should consider whether '-the guidelines accurately
reflect the seriousness, of the crime, factors not considered by
the guidelines, and factors considered by- the guidelines, but
given inadequate weight. To facilitate appellate review, the
trial . court must justify the -sentence imposed with an
explanation of why the sentence imposed is more proportionate to
tha offense and tha-offender than' a different sentence: would
have been.

-10-

Baople v. fetan-Bay, 321 Mksh App 490, 525 (2917). CM appeal, tbs reasonableness
of a sentence is reviewed for an abuse of discretion. Steasfesuse, 500 1‘ftch, at
471,
tee of "Acquitted Goasksat" for Fuspossss of Sentencing
In Beds, the MSC held that, "l!r]elianca on acquitted conduct at sentencing
violate! due process, as it was grotstdad in the guarantees of fundamental
fairness ;and the presumption of innocence.” People v". Bsck, 504 Mich 60S, 626
(2020)(citations omitted)llalterafcioa added). As in Petitioner’s'. case, the
defendant, in, Beck, was jury-convicted as a fourth-offense habitual offender of
being a felon in possession of a firearm (felon-in-possession) and carrying a
firearm during, the cnaraission of a felony (felony-firearm), second offense, but
i

i

acquitted; of open murder, carrying a firearm with unlawful intent, and two
additional coimts of felony-firearm attendant <to'those charges. Id., at 610,
Defendant's

applicable

guidelines

range

for

a

felon-in-pos session

conviction was 22 bo 76 wraths, bit the court Imposed a sentence of 240. to 400
months (20 to 33 1/3 years), to run consecutively to the mandatory five-year
term for' second-offense- felony-firearm. Id, The trial court explained its
reasons for the sentence imposed as, inter alia, its finding by a preponderance
of the evidence that the defendant committed the murder' of which the jury
acquitted him. The trial court, in pertinent part, states;
"With respect to that .charge, the Court does find that there
are compelling reasons to go over the guidelines. The Court
believes that ... to sentence within the guidelines would not be
proportionate tooths seriousness’ of the defendant's conduct or
the seriousness of his eriminai history. And for that reason the
Court is going' to go over the guidelines id"’ setting a' sentence
that is, in fact, proportionate to those things."'
tleman has a ..prior murder conviction ©n his record
"Has
that he ' is n guilty to for which he" served 13 years in
And then this charge, offense date was 'June II,
■prison « »• «
2013 where, again, he is in' possession of a firearm at murder
scene."

PS

"They [the'jury] could not find, beyond a reasonable doubt,
-11-

l

that tbs defendant committed tha homicide. But ths Court
certainly finds that there is a preponderance of the evidence
that he did."
"And that this is the reason for ths Court's finding that,
in fact, this gentleman, in my opinion, did kill the victim for
no otter reason than jealousy...." "Aid, certainly, provided the
weapon. But in tha Court's opinion, he didn't just provide it,
ha actually was tha person who perpetrated the killis^. And I do
find by a preponderance of the evidence that that has been
shown. And I do consider that in going over the guidelines in
this matter."
Back, 504 Mich, at 610-412 (alteration and ellipses added).
On appeal to ths MCDA, Back challenged his convictions and sentences on

r

multiple , grounds, including that the trial court erred by increasing his
sentence pa fete basis of conduct of which he had bean acquitted. Id., at 612. In
response,? in an unpublished opinion, the MGDA remand®! tha case to fh© trial
court for further sentencing proceedings (a Crosby remand) under People v.
f.
;
Staanhouse, 313 Mich App 1 (2015), affd in part and rav'd in part by People v.
Steathouse, 500 Mk& 453 (2017). Beck, 504 Mich, at 612? See United States v.
«...

Crosby, 307 F*3d 103 (&sd dr*2005)$ I&ckrldge, 49S Mich, at 305-303. Bask next
sought leave to appeal to the MSG, in which the defendant argued that the trial
court's reliance oa conduct of which he was acquitted to increase his sentence
violates

his

cons ti tutlocal

rights

under

U.S'.Oseasfc.Amsad.Vl*

' and

U.S.Qanst.Amaai.XXV*, as interpreted by tha United States Supreme Court. Beck,
504 Mich, at 613-614.
In agreeing with Back's argument that the trial court's reliance on conduct
of which Beck was acquitted to increase his sentence violates his constitutional
rights under both the Sixth and Fourteenth Amendments to the United States
Constitution, U.8.0as^fc.AsBsnd.VI»| U.S.Gsnsfc.Amsnd.XJV’., the MSG opined that, as
a general matter, tha Fourteenth Amendment incorporates tha Sixth Amendment
rigb^ to a jury trial in State prosecutions, Beck, 504 Mich, at 615 (citing
Duncan, 391 U.S., at 149), and tha Fourteenth Amendment right to due process
-12-

V

includes "the presumption of innocence - that bedrock 'axiomatic and elementary
principle whose 'enforcement lies at the foundation of the administration of our
criminal law."' Beck, 5(14 Mich, at 615 (citing la s® Winship, 397 U*S« 35$, 363
(1970)(quating Gaffin' v. United States, 156 0.S. 433, 453 (1895)). A defendant
is entitled to' a presumption of innocence as to all charged conduct until .proven
guilty beyond a reasonable doubt, and that presumption is ' supposed to do
meaningful constitutional work as long as it applies. M., at 621.
'. In. concluding that reliance on acquitted conduct at sentencing violates, due
process,as' grotsdsd in fee guarantees of fundamental fairness and the
presumption of innocence, id

at 626 (citations omitted), the MSG went on to

write that;
When a jury has made no fladings (as with uncharged
conduct, for example), no constitutional impediment prevents a .'
sentencing court from punishing the defendant as If he engaged
in that conduct using a preponderance-of~fee-evidence standard.
■' ^ , ■
But when a jury has specifically determined that the prosecution
has not.proven beyond.a reasonable doubt that, the defendant
engaged in certain 'conduct, " the' defendant continues 'to be
pbasuned innocent. To allow .the trial court to use at sentencing ■
an essential element of a greater offense as an aggravating "
factor, when the prestmpfcion of innocence was not, at trial,
overcome as to this element, is fundamentally inconsistent with
the presumption of innocence itself.
Id. Ibiting State v. Harley, 321 M.C. 415, 425 (1988)). "vfe can think of no
reason that a jury's: finding the defendant not guilty of a charge undoes feat
guarantee. In fact, the jury's view feat fee State did not meat its burden of
proof should ait the other way." Id., at 621,
As previously noted above, when fee MSG decided Bask, Petitioner's case was
remanded to fee MG3A wife instructions to vacate Petitioner's sentence for home
invasion and to reconsider Petitioner's sentence in light of Bask, Asp. G. On
remand, the MG3A once again rejected. Petitioner's argument that his sentence is
unreasonable and in violatic® of his right to due process .such that,.; the trial
court's departure from fee applicable advisory guidelines is based on conduct

”13-

©f which he was acquitted* & affirming Petitioner's sentence for home invasion,
the MQOA relied on the trial court’s explanation for its sentence by stating:
Well, [defendant], if you have a amali child, than you of "
all people should have known that possible harm and what
possible heartache could cots from gunfire being utilized in a
small residential place where there was a three-year-old child.
In this particular case you mobilized an angry, volatile
young person that you knew to be angry: and volatile, and who had
a penchant for using guns to coma over and rally with you
because of someone*s missing tennis -shoes. ■
■
A thrrae-year old child has no future. There is heartache
for that faadl
.
y because it was your idea. You were the one who
instigated the phone call and all ©f the action that led to a
three-year old child being murdered on Easter Stmd&y,
I know that your position has been that you did not do
anything', that you were just there watching. Well, the1 jury
didn’t believe that, and I don't believe that, and I don't
believe that, Nobody brings spectators to a murder. You were
involved. You were there in the car with the shooter driving
there, and you ware, there with- tbs shooter driving away.
g
And,
; but for your involvement, that three-year old child would be
alive today. You bear enormous responsibility.
App. B., at p.3 (alteration in original). :
In support Of his proposition that, in departing from the established
advisory guidelines minimum range of 57 to 142 Kkmths, the trial court relied
upon acquitted conduct, Petitioner points - to the part of the record that the
MQ3A elected not to which, in relevant part, provides:
PS&SEHJnCM: But nonetheless the maxiimM sentence that this
Court can impose, which the People, believe is a reasonable
sentence under Lockridge is 26 to 40 [years]*
The People would ask the Court to Impose that sentence
based on the■ defendant’s role in this homicide. As the .Court',
indicated, he was the leader • • * * " '
He called [Paul Kendall] over to that situation which
resulted in tba death of not only Anaiya, which is scored but we
also have two AWIM victims inside that house
e * * *

ST,

8/30/16,

at p.X4 (underlining in original) (emphasis,

ellipses,

and

alteration sided).
With respect to the trial court’s reliance on conduct of which Petitioner
-14-

was acquitted, Petitioner looks to Offense Variable (hereinafter ‘W) 3, which
is physical injury t© victim, MGL 777.33, and provides, in pertinent part, the
following:
■ Score 100 points if death results from'the cosmsission of a
crime and homicide is not the sentencing offense*
MEL 777.33(2)(|b).. Petitioner asserts that, in assessing 0V-3 at 100 points under
MCL 777.33(2)(fe), the trial court clearly relied on conduct of which Petitioner
was acquitted,specifically, first-degree premeditated murder and felony murder.
See ST, 8/30/16, at pp.6-7. In addition, Petitioner was acquitted of two counts
of assault with intent to murder. Hess, the trial court's reliance @n acquitted
conduct in assessing GV~3 at 100 points under MCL 7??.33(2)(b), contradicts ths
Km assertion that, "the trial court did not equate [Petitioners] conduct with
tbs murder." App. B •» at p.3 (alteration added), As such, Petitioner's advisory
guidelines minimum sentence range ©f 57 to 142. months ms established on the
basis of Ms conviction of tans invasion, and Petitioner's present sentence of
18 to 40 years3 imprisonment was established on the basis of his acquitted
conduct, in this case, murder.
Petitioner submits that, although ha was sentenced as a third-habitual
offender under MCL 769,11, his to?® prior felony convictions were for nonviolent
offenses, both of which are for uttering and publishing, ST, 8/30/16, at p.5, of
which Petitioner pled guilty. Id., ©t pp.4-5. Petitioner is without a history of
juvenile adjudications. Moreover, the trial court assessed 0V-14 at 10 points,
MO. 777.44, which is offender role, concluding that Petitioner was the leader in
a multiple offender situation, despite the fact that it appeared that ths jury
was concerned that Petitioner's involvement was based.on duress or coercion, as
evident in the fast .that the jury specifically asked the trial court about the
defense of duress. Finally, in this case all the witnesses who had prior
knowledge of Petitioner testified that Petitioner was not a hitman or an

-15-

enforcerand he did not carry a gun. In this case* because the trial court
departed frees the applicable advisory guidelines minimum sentence range of 57 to
142 months, it was required to apply fete * 'principle-af-proportionality , {»

fCl

which

requires the sentences imposed by the trial court to be proportionate to .the
seriousness of' the cicmnstanses surrounding the offense aid the offender.*".
People v. MHboum, ,435 Mich 639, 636 (1999). As demonstrated, above, the trial
court considered, only the. seriousness of .the circumstances surrounding the
offenses ;of first-degree premeditated murder and felony murder, both of which
Petitioner was acquitted by a jury.
Based on the above, Petitioner insists that his departure sentence of 18 to
r

■

■■

■■.—

—

40 years! Imprisonment, is premised upon his acquitted conduct of first-degree
premeditated murder and felony murder. As such, Petitioner's departure sentence
is not more proportionate than a sentence within the calculated advisory
guidelines minimum sentence of 57 to 142 months* imprisonment for his conviction
of first-degree horns invasion. See Dixon-Bey, 321 Mich App, at 525. Petitioner
contends that, under the MSG recent decision in Bock, because his sentence of 18
to 40 years' imprisonment is based on conduct of which he was acquitted, his
sentence is fundamentally inconsistent with the due process requirement of the
prescription of innocence.
... While - the State of Michigan has decided an important question of federal
law with respect to the Sixth and Fourteenth Amendments to the United States
Constitution and the use of acquitted conduct for sentencing purposes, in Back,
this Honorable Court has not. yet answered the important , question of federal law,
but should, in order to be settled by the Court. See S.Ct.E. 10(c).
The Court Has Mot Yet Definitively Answered ■ the Question ©£ whether, in Light of
the Court's Holdings in Appmdi and AUeyas, a Seabsacing Court's Reliance on
Acquitted Conduct for Sentencing Purposes Violate®' to Sixth and Fourteenth,
Amendments to to United States Constitution
For support that due process. precludes the use of acquitted conduct in

-16-

increasing a defendant's sentence, Petitioner looks first to tbs'general Sixth
Amendment rule announced by the Court in Appseetdl. tore, tbs Court bald that*
”[o]thsr than the fast of a prior conviction, any fast that increases to
penalty for a criias'beyond the prescribed statutory maximum must be submitted to
a jury* aid proved beyond a reasonable doubt.” Appraadi v. Haw Jersey* 53£> O.S.
4S6* 490 (203©)(alteration added)(bold-print for emphasis. added). The Apprmdii
Court went on to provide feats
'liujnder the Due Process Clause of fee Fifth Amendment and .
the. notice and jury trial guarantees of fee Sixth Amendment* any
fact (other than prior conviction) that increases the maximum
penalty for ,a crime must be charged in an indictment* submitted.
tso the jury* and proven beyond a reasonable dotfet*”

id. * at; m .(citing Jones v. Unite! States* 52$ U«$. 222*9 243 a*6
(1999))(alteration added). ■
Ihirteen-years after the Apprandi general rule* and in Alleyns, to Court
extended its Appsandi rule in holding that "s fact increasing sitter- ®sd of the
range produces a new penalty and constitutes an ingredient of.-fee .■■offsase.”

AHeyna

1Mted States9 133 §«.<&« 2151* 216# (2013). In Harris, to court drew

a distinction between facta feat increase the statutory maximum and facts that
increase only the mandatory minima. Id.* at 2155 (citing Harris v. United
States* 33S U*S* 345 (2002))» In so holding* the Harris Court concluded that
judicial factfinding that increases the mandatory molrmim sentence for a crime
is permissible under to Sixth Amendment, Harris* 536 U.S •t at 545. In
overruling Harris, as being inconsistent with the Court's decision in AjpgEeadi*
Alleyns 133 S.Ct

at 2155, fea Alleyns Court opined that ”fb]ardatQry rainixiajm

sentoses increase fee penalty for a. crime. It follows, then, that any fact that
increases ■ fee mandatory minimisa is an. "element” that must be submitted to fee
jury." Id.
The substance and scop© ©f this right* said the Court, depends upon fee
proper designation of. the facts that are elements of to crime. Id.* at 2156.
-17-

Hie touchstone, for determining whether a fast must ha found by a-jury beyond a
reasonable doubt is whether the fast constitutes an "ellHnsnfc” of “ingredient” of
tte charged 'offense. Alleyns, 133 S.Cfe «» at 2153 (citation omitted). 'In
Appreodij the Court held that a fact is by definition an element of the offense
and. must be submitted to .the. jury if it increases tbs punishment above what is
otherwise legally prescribed. Jd. ...(citing. Appeeadl, $60 0.3.. at 483 a.10).
PppeeadL'a definition of "elements” necessarily includes not only facts that
increase tha calling* bit also those that increase the floor. Id.
the .MSMULian and Watts Becisissss
.Petitioner avers that,tha Court’s- decisions in McMillan and Watts are
inconsistent with the Court's findings in AppEmdi and. AUeyoe, and should be,
.as demonstrated below, overruled by tha Court.
It was in- tfe Court's decision in MsMlllan when the .term "sentencing
factor” was first used to. refer to facts that, are not found by,a jury but that
can still increases, defendant’s punishment. Alleyns, 133 S.Gt., at 2156 (citing
MsMtllan v. Baaasylvaaie, 47? O.S. 79, 86 (1986)), In McMillan, the defendants
ware convicted of'felonies which, under' Pennsylvania law, carried, mandatory
minimum sentences of 5 years’ imprisonment- if the. sentencing judge found by a
preponderance of tine evidence that tbs accused visibly possessed a firearm
during commission of the offense.- HSMlllan, 477 U.S., .at’ 81. Ihe trial, court in
each of four consolidated cases held that tha. statute in question violated tha
Sixth Amendment and tha Due Process clause of the Fourteenth Amendment. Id., at
83.
This

Court granted certiorari and affirmed

the ■ judgement of

Pennsylvania Supreme Court,- and. in. doing so, hold that;
t?[v]isibla possession of a- firearm-could be treated as a
sentencing consideration. and not. as an element of ary
o£f@ase[,j” ”... that a State need not prove beyond a reasonable
doubt every fast which it is willing to recognise as an
exculpatory or mitigating circrasfearce affecting tha degree of
-IS-

the

culpability or the severity of fee punishment. Because § 9712
came into existence only attar defendants were convicted of an
enumerated felony, yisiHe possession was pot an element ©f the
offense and due probass was satisfied by a preponderance of fee
'■ evidence standard of proof.**’
MsHUJLan, 477 0.S., afe 83 (citations audited)(alteration and ellipses added).,
^fdlan and Asqutt&ad GsndU&t
. Despite the fact that tfeHillan did dot involve a trial court's relieve .cm
acquitted conduct, federal courts that have addressed constitutional challenges
to the use of acquitted conduct at sentencing have relied almost entirely ;on
HsMiHan and Watts to reject both, die process and Sixth Amandasnt- challenges.
Baaplm v* Seek, 504 Mich 60S, 618 (2019)(citing United States y. toe,’ 474
F.3dl004„ 1005 (7th Glr.2G0?)(citing MgHUlan and Watts but not identifying the.
' constitutional, right at, issue)? United States v. Eteroely, 454 F*,M 366, 372
- (B.C. Cfe*2095)Mreje©t;ing both due process and Sixth Amsndhsnt apgtsasnfs, siting
kfeHillan ■ and Watts) ? United States v. Faust, 456 F.3d 1342, 1347 (11th
Cir.2G06)(finding no Sixth Amendment violation, discussing Watts)). *
As fee MSC acknowledges in Bask, with respect to H^Ulan'i holdings' .

,

There are at least three problems with relying,on MsMUlan
as dispositive of claims that fee use of acquitted ©onduct does
tot violate due process* First, MsMillaa did not involve'the use ■
of acquitted earduet. Second, its constitutional analysis' rests
on very shaky footing in light of intervening caselaw. Third,
even if it is only
Sixth Amendment. analysis that has
been abrogated,, the intertwining nature of fchs Sixth; Amendment.
right to a jury trial and the Fourteenth Amendment right to due
process makes it all but,impossible not to view'its due-process
analysis as significantly ecnpromised.

504 Mch, at 624. Petitioner asserts that because MsMlllsa did not involve a
trial court's reliance on acquitted conduct, the Court has never, addressed tha
unique question. The McMillan Court's general holding that it does not violate
due process or the Sixth Amendment for fee. trial court to find facts by a
preponderance of the evidence when imposing sentence is clearly inconsistent
with fee Court's holdings in Appreadi and Allayas*
-If-

Though the McMillan Court declined to ''const!tufcionaliz[e ] buncos of proof
at sentencing,"McMillan,'47? U.$ •* at 92, that disinclination was expressed in
ah ahdwer. to uncharged conduct aid not acquitted conduct. Acquitted conduct is
already constitutionalized* Due process encompasses the requirement that the
State prove the charges beyond a reasonable doubt, to be sure. But that is hot
V

all it guarantees. Back, 504 Mich, at 620. A defendant is entitled to tbs
presumption of innocence as to all charged conduct until proven guilty beyond a
reasonable doubt. This distinction between acquitted conduct and uncharged bad
acts present®! at sentencing is critical and constitutional. Acquitted conduct
?

.

...

shows'up.•r at sentencing in - the company of the die process protection' of the
presumption of innocence? uncharged conduct, said the McMillan Court, does not.
McMillan* 477 U.S., at '621. /
Watts and Acquitted Conduct .
) . "

Petitioner submits that,; because Watts stands for the proposition that a
jury's verdict of acquittal does hot prevent the sentencing court from
V

considering conduct underlying the acquitted charge, so long as that conduct has
been proved by a preponderance of the evidence, United States v* Watts, 519 U.S.
148, 15? (1997), its holding., is inconsistent with the Court's Sixth Amendment
jurisprudence in Apprendi and AHeyne, such that, both decisions stand for the
proposition that, "otter than the fact of a prior conviction, 'any fact that
increases the penalty for a crime beyond the prescribed statutory maximtan must
be submitted to a jury, and proved beyond a reasonable doubt." Apprendi, 530
06$ *>

at 498? ■ see also Aliena, '03. S.Gt *» at 2160 (holding that, mandatory

minimum sentences are equally subject -to the Apprsadi rule, and stating that "a
fact increasing either end of the range■ produces a new penalty and. constitutes
an ingredient of the offense").
'While the Court, in Watts, directly addressed a sentencing' court's use of
acquitted, conduit at sentencing, it was in the context of double jeopardy
-20-

challenge* Back* 504 Mich, at 624* In fact, in Booker, five Justices gave 'frjafcts
side-eye' treatment and explicitly limited its holding to the double jeopardy
context. Id. (citing Booker, 543 U.S •» at 240 n*4).
Petitioner contends that, as demonstrated above, the Goart's holdings in
MaMiHaa and ffetts, are clearly inconsistent with the general Sixth Amendment
rule the Court announced in Apprendi, as extended in Alleyns. Petitioner further
contends that, as dssnonstrated above, the use of acquitted conduct, whether for
purposes ;of increasing a defendant's sentence or as coaipellirg and Substantial
reasons to
support a departure sentence from a calculated advisory guidelines
,
minimum sentence, violates the due process guarantee of the presumption of
Innocence/.•*
In conclusion, Petitioner states that the May 26, 2020, decision of the MSC
denying his application for leave to appeal the February 27, 2020 judgement of
the MGQA affirming Petitioner*s sentence of 18 to 40 years* imprisonment that is
based on conduct of which Petitioner was acquitted, is, under its decision in
Bask, contrary to the Sixth and Fourteenth Amendments to the United States
Constitution, specifically, the due process guarantee of the presumption of
innocence until proven guilty by a jury beyond a reasonable doubt. Permitting a
trial court's reliance on conduct of which a defendant was acquitted for
purposes of sentencing, irregardless of whether the sentence is based oh a
calculated advisory guidelines minimum sentence rang® or a departure sentence on
the basis of a compelling and substantial reason, ■ prosecutors across the Nation
would have an incentive to charge defendants with multiple offenses" knowing
that, even if a defendant is convicted on some'offenses and acquitted on others,
the conduct of which the defendant was acquitted can still be considered by the
trial court in increasing a defendant's sentence.

-21-

Q9NGLQS1SR AND WU$£5? REqUES1ED

WHEREAS, for the reasons set forth above, Petitioner respectfully requests
that the Court:
1. Grant Petitioner's Petition for a Writ of Certiorarij
2 6 Settle the Constitutional question as to whether the use of acquitted
conduct by a sentencing court in calculating advisory guidelines rainism sentence
ranges or -for purposes of finding a substantial and compelling reason for a
)

departure from the calculated advisory guidelines minimum sentence range,
violates tjie notice requiraiant of the Sixth
and the p£eaapK!« o£
innocence requirement of the Fourteenth amendment under the general Sixth
Amendment rule announced by the Court in Appseadi, as extended in Alleynej
3. Overrule the Court's foldings in tfeMillan and ffe&fcts as being
i

unreconsiliable and inconsistent with the Court's general Sixth Amendment rule of
Apprsndi, ;as extended in Alleyns j
. . 4. Find that, the sentencing court, In departing from the calculated
advisory guidelines minimum sentence rang®, relied on acquitted conduct as a
substantial and compelling reason to do so. As such, reverse the decisions of
both the MSC and MCQAj aid
5« Grant Petitioner any further relief tot the Court deems just and £aire
Most respectfully submitted,

Dated:

JOHNATHAN LAMAR BURKS #638048
Pm Se Prisoner Petitioner
Bellamy Creak Correctional Facility
1727 West Bluewater Highway
Ionia, Michigan 48846

«22“

